UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
.••cr

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

PLRA C.R. 3(b) FINAL ORDER
October 16,2020
KEVIN L. MARTIN,
Plaintiff - Appellant
No. 20-2022

v.
ASHLYNN LEDFORD,
Defendant - Appellee

Originating Case InformationDistrict Court No: 2:19-cv-00201-JRS-DLP
Southern District of Indiana, Terre Haute Division
District Judge James R. Sweeney
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
appellate court on August 25,2020 and was given fourteen (14)days to pay the $505.00
filing fee. The pro se appellant has not paid the $505.00 appellate fee. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

/

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 1 of 6 PagelD #: 551

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN L. MARTIN,
Plaintiff,
v.

ASHLYNN LEDFORD,
Defendant.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00201 -JRS-DLP

ORDER VACATING APPOINTMENT OF COUNSEL
AND ISSUING SANCTIONS AND TEMPORARY FILING BAN
Kevin Martin is a frequent litigator in this court. He recently "struck out" pursuant to 28
U.S.C. § 1915(g), having filed three or more meritless lawsuits in federal court. This means
Mr. Martin may not file any new civil rights lawsuits unless he either pays the full $400 filing fee
or demonstrates that he is in imminent danger of serious physical injury. See Martin v. Meeks, et
al., 2:18-cv-00395-JMS-DLP, dkt. 186 (order issuing third strike, listing previous two strikes, and
explaining consequences to Mr. Martin). He continues to have nine cases pending in this district.
Recent actions by Mr. Martin against his previously appointed counsel in another case lead
the Court to conclude that it cannot appoint counsel to represent Mr. Martin in this case.
For the reasons explained below, the Court finds that in addition to striking out for future
cases, Mr. Martin should be sanctioned, by way of a fine, for harassing appointed counsel in Martin
v. Nicholson, 2:18-cv-00391-MJD-JMS. Until he pays the fine, the Clerk of the Court is ordered
to return unfilled any papers Mr. Martin submits to this Court, with the exception of appeal
documents and habeas cases.

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 2 of 6 PagelD #: 552

I.
Background
Since 2018, Mr. Martin has filed a dozen civil rights cases in this Court. He has also filed
cases in the Northern District of Indiana and in Indiana state court. When litigating a case pro se,
Mr. Martin engages in aggressive motion practice. For example, in Martin v. Meeks, et al., 2:18cv-00395-JMS-DLP, Mr. Martin filed eight motions to compel, along with several motions to
clarify, motions for subpoenas, "good faith" letters, and other filings all between February 26,
2019, and June 18, 2019. He took a similar approach to litigating his other cases in this Court,
thereby straining judicial resources. This conduct, along with Mr. Martin's complaints that arthritis
in his hand hindered his ability to litigate his cases, led the Court to issue orders in all of
Mr. Martin's civil rights cases—apart from the case discussed above where he proceeded with
appointed counsel—forbidding Mr. Martin from filing most motions unless he had previously
been authorized by the Court to file them. See 2:18-cv-00395-JMS-DLP, dkt. 120. The Court
allowed Mr. Martin to file a monthly agenda in each case, listing the issues he wanted to discuss
at monthly telephonic status conferences. Even after the Court instituted this process, Mr. Martin
persisted in filing unauthorized motions. See 2:18-cv-00395-JMS-DLP, dkt. 150. In this case,
Mr. Martin has filed four unauthorized motions. Dkts. 28, 29, 34, and 78, terminated at dkts. 30,
37, and 83. He has also filed numerous submissions, notices, and letters in addition to his monthly
agendas.
The Court previously appointed counsel for Mr. Martin in Martin v. Nicholson, 2:18-cv00391-MJD-JMS. After counsel ably represented him throughout the entire course of litigation,
Mr. Martin filed a notice of tort claim alleging that appointed counsel had committed malpractice.
Id. at dkt. 190. The Court has concluded that Mr. Martin's notice of tort claim is frivolous and
intended to harass his pro bono counsel. Dkt. 92.

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 3 of 6 PagelD #: 553

Mr. Martin's attack on his pro bono attorneys not only burden his counsel unnecessarily,
they also harm the Court's pro bono program, which expends considerable efforts to recruit
counsel, and other pro se litigants seeking the assistance of counsel. One barrier to recruiting
attorneys to volunteer is the false perception that pro se prisoner litigants are vexatious and likely
to file a frivolous suit against their pro bono attorney. Mr. Martin's actions reinforce this perception
and make it more difficult for the Court to recruit attorneys to assist other pro se litigants.
II.
Vacating Appointment of Counsel
On May 1, 2020, the Court denied Mr. Martin's motion to appoint counsel because it did
not acknowledge the conditions of the appointment of counsel. Dkt. 88. Although Mr. Martin has
not filed a renewed motion for counsel, and although litigants in federal civil cases do not have a
constitutional or statutory right to court-appointed counsel, Walker v. Price, 900 F.3d 933, 938
(7th Cir. 2018), counsel was appointed in this action on May 12, 2020. Now, because Mr. Martin
has harassed competent counsel previously appointed by the Court, the Order of Recruitment of
Counsel in this case, dkt. [91], is VACATED!
III.
Sanctions
"District courts 'possess certain inherent powers, not conferred by rule or statute, to manage
their own affairs so as to achieve the orderly and expeditious disposition of cases. That authority
includes the ability to fashion an appropriate sanction for conduct which abuses the judicial
process.'" Fuery v. City of Chicago, 900 F.3d 450, 452 (7th Cir. 2018) (quoting Goodyear Tire &
Rubber Co. v. Haeger, 137 S.Ct. 1178, 1186 (2017)) (internal citations omitted). Such sanctions
can include monetary fines and the imposition of a filing bar to restrict a plaintiffs ability to file
new lawsuits. See Support Sys. Int'l, Inc. v. Mack, 45 F.3d 185, 186 (7th Cir. 1995) (filing bar

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 4 of 6 PagelD #: 554

imposed on pro se party who continued to file false evidence and did not respond to monetary
sanctions). A filing bar, however, must be tailored to the misconduct. Henry v. United States, 360
F. App'x 654, 656 (7th Cir. 2010).
Mr. Martin has demonstrated that he is using litigation for the purpose of harassment. In
this case, sanctions combining a monetary fine with a temporary filing ban is appropriate. The
Court considered lesser sanctions but concludes that they would not be effective for at least two
reasons. First, the Court's previous attempt at limiting Mr. Martin's excessive motion practice was
relatively ineffective. Second, since he recently struck out, he is already prevented from filing new
cases unless he can either pay the $400 filing fee or demonstrate that he is in imminent danger of
serious physical harm. A filing bar that only blocked the filing of new cases would not materially
change Mr. Martin's already limited ability to file new cases.
A temporary filing ban is required in conjunction with a monetary fine because Mr. Martin
is proceeding in forma pauperis in all his cases in this Court. He likely has little ability to pay a
fine, and even less incentive to do so. See Mack, 45 F.3d at 185 (noting that pro se plaintiffs
litigating in bad faith often ignore monetary sanctions).
The Court considered and decided against the more severe sanctions of dismissing
Mr. Martin's pending civil rights cases, either with or without prejudice. The intermediate sanction
of a monetary fine and temporary filing ban gives Mr. Martin an opportunity to continue litigating
if he pays the fine. In recognition of his limited means, the Court imposes a lesser fine than would
be imposed in cases not involving an indigent inmate.
IV.
Conclusion
The Court sanctions Mr. Martin with a fine of Five-Hundred Dollars ($500). Until he pays
this fine, the Clerk of this Court is ORDERED to return unfiled any papers in civil litigation that

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 5 of 6 PagelD #: 555

Mr. Martin submits to this Court, with the exception of a Notice of Appeal and habeas cases. See
Thelen v. Cross, 656 Fed. Appx. 778 (7th Cir. 2016) (imposing filing ban and citing Mack, 45 F.3d
185). After two years, Mr. Martin may seek modification or rescission of this Order. Mack, 45
F.3d at 187 ("Perpetual orders are generally a mistake.").
The clerk is directed to route any future civil rights complaint from Mr. Martin in which
he alleges imminent danger of serious physical injury to chambers for review. Such lawsuits will
be deemed rejected, without the need for judicial action, on the 30th day following receipt, unless
the Court orders otherwise. See Dallas v. Gamble, 448 F. Supp. 2d 1020, 1027-28 (W.D. Wis.
2006).
The clerk is directed to docket this Order in each of Mr. Martin's other eight pending civil
rights cases:
2:18-cv-385-JPH-DLP
2:19-cv-134-JRS-DLP
2:19-cv-268-JRS-DLP
2:19-cv-279-JPH-DLP
2:19-cv-280-JRS-DLP
2:19-cv-298-JRS-DLP
2:19-cv-552-JRS-DLP
2:19-cv-5 59-JRS-DLP
IT IS SO ORDERED.

Date: 6/3/2020
JAMES R. SWEENEY II, JUDGE
United States District Court
Southern District of Indiana

Case 2:19-cv-00201-JRS-DLP Document 93 Filed 06/03/20 Page 6 of 6 PagelD #: 556

Distribution:
KEVIN L. MARTIN
169789
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY - Inmate Mail/Parcels
6908 S. Old US Hwy 41
P.O.Box 1111
CARLISLE, IN 47838
Samuel Mark Adams
JOHN H. HASKIN & ASSOCIATES, LLC
sadams@jhaskinlaw.com
David C. Dickmeyer
INDIANA ATTORNEY GENERAL
Dav id .D ickmeyer @atg. in. gov
Marley Genele Hancock
INDIANA ATTORNEY GENERAL
marley.hancock@atg.in.gov
Steven John Hosier
INDIANA ATTORNEY GENERAL
Steven.Hosler@atg.in.gov
Matthew Stephen Koressel
ZIEMER STAYMAN WEITZEL & SHOULDERS LLP
mkoressel@zsws.com

Additional material
from this filing is
available in the
Clerk's Office.

A

